<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        WEDNESDAY, APRIL 3, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:24 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Cindy Hyde-Smith (Chairman) 
presiding.
    Present: Senators Hyde-Smith, Murphy, and Van Hollen.

        UNITED STATES SENATE SERGEANT AT ARMS AND DOORKEEPER AND

                      UNITED STATES CAPITOL POLICE

             OPENING STATEMENT OF SENATOR CINDY HYDE-SMITH

    Senator Hyde-Smith. Good afternoon. The subcommittee will 
come to order.
    I would like to welcome everyone here to our second fiscal 
year 2020 budget hearing for the Legislative Branch 
Appropriations Subcommittee. I apologize we are late getting 
started. We had a vote on the floor. But hopefully everyone 
will join me when they have an opportunity to run over here 
like I did.
    Today we have with us the Honorable Michael Stenger, 
Sergeant at Arms of the Senate, and Matthew Verderosa, Chief of 
the U.S. Capitol Police.
    I appreciate your willingness to appear before the 
subcommittee today, and I certainly look forward to your 
testimony.
    The vital services provided by both of your agencies enable 
Members of Congress to do our jobs and maintain an open 
democratic process. We appreciate what you and your teams do 
every day to protect us, our staff, and the millions of people 
who visit our Capitol each year.
    Also, I'd like to thank you both for you taking the time to 
meet with me before this hearing and letting me know a little 
bit more about your agencies.
    The total budget request for the Sergeant at Arms is $214.6 
million. This represents an increase of $3.8 million, or 1.8 
percent, above the fiscal year 2019 enacted level. This funding 
level includes an increase for the Senate IT Help Desk 
contract, continues the protection of our networks, and 
provides for the services that support the day-to-day 
operations of the Senate.
    The Capitol Police request for fiscal year 2020 totals 
$463.3 million, an increase of $7 million, or 1.5 percent, 
above the fiscal year 2019 enacted level. This increase 
supports an additional 57 sworn personnel to continue to meet 
the needs of the Capitol Police Board's 5-year plan to cover 
known vulnerabilities and mission expansion. It also covers 
expenses associated with supporting the Republican and 
Democratic National Conventions, which will be in 2020.
    I look forward to our discussion today and learning more 
about the requests from your agencies. And when Senator Murphy 
gets here, we will certainly recognize him.
    Okay, I am going to go ahead and get started, and if you 
want to go ahead, we can start with you, as giving an opening 
statement, the Honorable Michael Stenger.
STATEMENT OF THE HON. MICHAEL C. STENGER, SERGEANT AT 
            ARMS
ACCOMPANIED BY:
        JENNIFER HEMINGWAY, DEPUTY SERGEANT AT ARMS
        DICK ATTRIDGE, CHIEF OF STAFF
        BRIAN MCGINTY, ASSISTANT SERGEANT AT ARMS, OFFICE OF SECURITY 
            AND EMERGENCY PREPAREDNESS
        JOHN JEWELL, ASSISTANT SERGEANT AT ARMS, CHIEF INFORMATION 
            OFFICER
        KRISTA BEAL, ASSISTANT SERGEANT AT ARMS, CAPITOL OPERATIONS
        MIKE CHANDLER, ASSISTANT SERGEANT AT ARMS, OPERATIONS
        TERENCE LILEY, GENERAL COUNSEL
        ROBIN GALLANT, CHIEF FINANCIAL OFFICER
        KATRINA SIMS, EXECUTIVE ASSISTANT

    Mr. Stenger. Thank you, Chairman.
    Chairman, Ranking Member Murphy, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear 
before you today and present the Sergeant at Arms 2020 budget 
request. I ask that my formal testimony be submitted for the 
record.
    The budget request reflects a modest increase of 1.8 
percent over the fiscal year 2019 enacted budget. We continue 
to remain good stewards of the funds entrusted to us by 
providing oversight and management, and, most importantly, 
focusing our resources on the operational needs of the Senate.
    Safety and security of the Senators, their staff, and 
visitors, both here and abroad, and ensuring the legislative 
process goes unimpeded remains our top priority. I can provide 
this support because of the talented leadership I have behind 
me: Jennifer Hemingway, my Deputy; Dick Attridge, my Chief of 
Staff; my Assistant Sergeant at Arms, Brian McGinty; John 
Jewell; Krista Beal, and Mike Chandler. On my executive staff, 
I have with me today: Terence Liley, my General Counsel; Robin 
Gallant, my Chief Financial Officer; and Katrina Sims, my 
Executive Assistant.
    Preparing for emergencies and protecting the Senators and 
their staff remains the primary mission of my Security and 
Emergency Preparedness Directorate. Through exercises and 
drills, we continue to train Senate staff on threats and how to 
react to them. My request provides us with the funds necessary 
to continue with this mission. It will further allow us to 
connect the Joint Emergency Mass Notification System with the 
new digital signage throughout the Senate buildings.
    My Intelligence and Protective Services maintains 
collaborative partnerships with the United States Capitol 
Police and the many law enforcement and intelligence agencies. 
These partnerships have proven to enhance our situational 
awareness with the Senate community, particularly during 
significant events and activities at the Capitol and State 
office locations.
    My budget request affords the necessary funding to plan for 
these events, such as the upcoming Republican and Democratic 
National Conventions and planning for the fiscal year 2021 
Presidential Inauguration.
    We recently created the Office of Member Outreach and 
Security Coordination to work closely with the Capitol Police 
to implement security initiatives and provide ongoing guidance 
to Members and their staff when planning and attending events. 
We will continue developing this office to ensure the Senators 
and their staff have the most current information on issues, 
such as threat level, specific areas of concern, and local law 
enforcement contact information.
    Cybersecurity threats remain a significant risk for the 
Senate. In 2016, we developed a cybersecurity awareness program 
to provide real-time actionable information to users. We will 
continue developing and refining assessments for offices 
following industry and government's best practices to mitigate 
risk.
    We have collaborated with academia, including Virginia 
Tech, Harvard, and Carnegie Mellon University. We intend to 
expand our partnership in protection approach through expanded 
collaboration with Northern Virginia Community College, the 
University of Maryland, George Mason University, and George 
Washington University. Further, we plan to continue awareness 
sessions with the offices.
    We have consolidated all State office support providing 
State offices one point of contact for assistance. The State 
Office Support Program provides staff training to the State 
offices on topics such as ``Responding to an Active Shooter'' 
and ``Stop the Bleed.'' Our budget supports continuation of 
these efforts.
    Developing and implementing a hybrid cloud strategy remains 
another key goal. Such strategy will allow us to move 
appropriate applications to the cloud after analyzing data 
protections. We are recompeting the support contract for the IT 
Help Desk to provide the Senate community with more highly 
trained technicians and improved responsiveness. We are in 
partnership with the Secretary of the Senate on a multiyear 
project to modernize the financial management information 
system. The first three modules are scheduled for initial 
implementation this year, which will allow for the retirement 
of the legacy system.
    A number of day-to-day support operations ensures the 
Senate can conduct business in a safe environment. For example, 
mail security and postal handling serves a critical safety 
function for the Senate. Our chamber operations, recording 
studio, and media galleries support the ability for Senators to 
communicate with their constituents and help ensure 
transparency in the legislative process.
    To conclude, the Sergeant at Arms proudly serves the Senate 
with an array of departments that supports the legislative 
process. The fiscal year 2020 budget request enables us to 
continue to provide solid security and logistical support, 
posturing us to plan for requirements in future years.
    We look forward to working closely with you and the 
subcommittee staff and thank you for your continued support.
    This concludes my opening remarks. I will be happy to 
answer any questions. Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Michael C. Stenger
    Chairman Hyde-Smith, Ranking Member Murphy, distinguished Members 
of the subcommittee; I appreciate the opportunity to testify in support 
of the Sergeant at Arms' budget request for fiscal year 2020.
    The SAA respectfully requests $214.6 million in appropriated funds; 
a 1.8 percent increase from the fiscal year 2019 enacted level. This 
level of funding supports our continued focus on the safety and 
security of Senators while providing a range of technical and 
administrative services. Our requested increase will allow us to make 
needed investments in our information technology infrastructure and 
support our 920 full-time equivalents.
    As I begin my second year as Sergeant at Arms, I am pleased to 
share, with your continued support, how we have made steady progress in 
meeting our mission.
                         emergency preparedness
    We continue to educate, train, and exercise emergency plans and 
procedures to ensure Members and staff are equipped with the necessary 
knowledge, skills, and tools to prepare for, mitigate, respond to, and 
recover from a variety of emergencies. Using guidelines from the 
Congressional Accountability Act, we worked with Senate offices to 
update 115 Emergency Action Plans during fiscal year 2018 that provide 
detailed evacuation routes and elevator locations for the mobility-
impaired. Further, we assisted 25 offices with drafting their 
continuity of operations plans strengthening the Senate's ability to 
continue performing its essential functions during and after disruptive 
events. We also supplied and maintained emergency supply kits, 
annunciators, and escape hoods, offering personalized preparedness, 
alert notification, accountability, and equipment training. We 
distributed guides informing staff on how to respond to threatening 
situations, protestors, and other emergencies. With infants and 
children now visiting in the Senate Chamber, we added baby escape hoods 
and coordinated with the Architect of the Capitol (AOC) to have infant 
chest pads included with Chamber Automated External Defibrillators.
    Readiness and protection of Members, staff, and visitors remains 
our primary focus. Working with the United States Capitol Police 
(USCP), we conducted over 30 annual evacuations, shelter in place and 
internal relocation drills, as well as the first offsite Chamber 
exercise allowing staff to observe and participate in realistic 
emergency scenarios and gain an appreciation of law enforcement 
responses. Further, we trained more than 3,000 staff on essential 
topics, including protective actions, emergency action planning, and 
ALERTS/Remote Check-In procedures. The Responding to an Active Shooter 
class, which is taught with USCP, remains our most popular course on 
how to react and what to expect from law enforcement. For fiscal year 
2019 and fiscal year 2020, we plan to host Preparedness Fairs and 
invite response organizations during the September recess. This fair 
teaches staff about the services local emergency response organizations 
provide. Being prepared for emergencies at work and at home ensures a 
resilient work force. During protests and medical emergencies, the SAA 
uses a Mapping Tool that allows us to view Senate office building 
floorplans, identify room ownership, and gather contact information for 
impacted offices. We plan to expand this tool to create an `incident' 
view, allowing us to observe data from multiple floorplans and 
buildings over an extended period. We also plan to analyze the Senate 
Emergency Operations Centers (SOCs) to update and standardize 
capabilities, replacing outdated equipment and developing a mobile SOC 
capability to support emergencies when building access is denied.
    During fiscal year 2018 and fiscal year 2019, we expanded the Joint 
Emergency Mass Notification System (JEMNS) to support the Library of 
Congress (LOC) and Congressional Research Service, and finalized 
unification of the mass notification systems throughout the Capitol 
complex. For fiscal year 2020, we plan to connect JEMNS with new 
digital signage throughout Senate buildings. Additionally, we are 
piloting a program with the Committee on Energy and Natural Resources 
to install an alert beacon in their hearing room that JEMNS will 
trigger. This beacon will provide a silent visual notification to the 
Chief Clerk who can determine a response to the emergency message. We 
are also leading the Joint Audible Warning System project to replace 
the outdated annunciator system and better protect life and safety with 
a target implementation date of fiscal year 2020. In fiscal year 2018, 
we led an effort to activate the first Joint Legislative Branch Call 
Center Plan to handle large call volumes during a mass casualty event. 
Our fiscal year 2020 budget request includes funds to develop the core 
services and capabilities of a Family Assistance Center.
    We are also finalizing the modernization of an outdated radio 
system. These radios rely on a system of radio towers and repeaters 
that we maintain instead of commercial cell tower systems. We continue 
to collaborating with the House, USCP, AOC, and LOC to update, manage, 
and exercise joint communications plans and procedures for various 
additional communications devices. We are also working with the 
executive branch and other partners to continue to expand priority and 
preemption cellular services to select Senate users during highly 
congested events.
                security planning and police operations
    In coordination with USCP, we provide security and law enforcement 
support for the Senate community. This year's efforts included: (1) 
coordinating 1,227 Senate campus access requests; (2) working with the 
Committee on Rules and Administration and USCP to identify and publish 
numerous door and barricade restrictions during recess periods, special 
events, and holidays; and (3) representing the Senate on a joint 
Senate, House, USCP, and AOC campus security-working group. 
Additionally, we coordinated security coverage for 411 committee 
hearings and more than 50 Member-specific security requests.
    My office provides real-time situational awareness through USCP 
Command Center support. Our staff are on duty all hours the Senate is 
in session and throughout normal business hours during periods of 
recess to allow for communications between my office, USCP, and the 
Senate community throughout routine operations, special events, and 
emergencies. Approximately 648 security events, a 74 percent increase 
over the previous year, were monitored through this program last year. 
My staff also provided security oversight and coverage during the State 
of the Union address, summer concert series, and demonstration 
activities in Senate office buildings.
    In fiscal year 2020, we expect an increase in Member specific 
requests. My office stands ready to assist Member offices with 
coordinating security and law enforcement needs in either capacity.
                  intelligence and protective services
    We recognize the value of maintaining collaborative partnerships 
with various Federal, State, and local law enforcement, intelligence, 
and force protection entities to synchronize information, identify 
security risks, monitor threat streams, and maintain situational 
awareness to ensure appropriate mitigation and prevention strategies 
are deployed to protect the safety and security of the Senate, 
domestically and abroad. Expanding social media platforms and the 
availability of open source materials allow individuals to spread 
malicious intents and activities to a large audience. We proactively 
research and analyze such material and engage with community partners 
and subject matter experts to maintain security-related situational 
awareness and identify threat data against Members, their families, and 
staff. We discovered approximately 130 comments of concern, which we 
referred to USCP resulting in 24 criminal threat violations, a 33 
percent increase over the previous year. For fiscal year 2020, we 
anticipate social media awareness as well as threat discoveries to 
increase as social media platforms become a prominent communication 
method and open source intelligence technology develops further.
    We collaborate with USCP and other law enforcement agencies to 
ensure appropriate notification and communication with specifically 
targeted Members and staff while continuously monitoring, evaluating, 
and conducting vulnerability, risk, and threat assessments to determine 
and apply suitable security measures and protective operations 
coverage. Additionally, we provide situational awareness for the Senate 
community regarding significant upcoming events or planned activities 
in and around the Capitol complex and State offices, which may 
adversely affect Senate business. Finally, we collaborate with USCP and 
other agencies to support contingencies; oversee security operations; 
and perform incident management and response action planning for major 
events including Inauguration, State of the Union, Senatorial retreats, 
National Conventions, televised concerts, joint sessions of Congress, 
and other high profile National Special Security Events such as the 
Lying In State or In Honor of a government official in the U.S. Capitol 
Rotunda. Key events we will support in fiscal year 2020 are the 
Republican and Democratic National Conventions and the 2021 
Presidential Inauguration.
          office of member outreach and security coordination
    We created the Office of Member Outreach and Security Coordination 
to collaborate with USCP and implement several security initiatives, 
law enforcement outreach efforts, and protective services objectives to 
ensure Members and their staff receive the necessary guidance, tools, 
and support when planning and attending national public events. Weekly 
emails to Administrative Managers, Chief Clerks, and Schedulers offer 
simple methods for requesting law enforcement coordination and security 
assessments to mitigate concerns at public events with Members in 
attendance. We provide offices with a final product highlighting the 
overall threat level, specific areas of concern, and local law 
enforcement contact information. This extensive outreach initiative has 
led to almost 218 Law Enforcement Coordination and Assessment requests, 
a 187 percent increase over the previous year, and we anticipate a 
similar activity level for 2020.
                               id office
    We partnered with multiple Senate divisions to manage ID badge 
requests. Almost 12,000 new and updated Congressional and Press IDs 
were issued during fiscal year 2018. We anticipate our fiscal year 2020 
volume to be consistent with this requirement. In coordination with the 
Chief Information Officer, we intend to support various capabilities as 
outlined in the Homeland Security Presidential Directive (HSPD) 12, 
including email encryption, two-factor authentication, and secure 
remote network access throughout fiscal year 2019 and fiscal year 2020. 
We recently updated our badging software to meet National Institute of 
Science and Technology standards, which are considered best practices, 
and will proceed with upgrading badge production hardware to support 
the growing demand for Smart Cards and proximity-based IDs.
                           parking operations
    Parking Operations continues to plan for staff vehicle needs during 
ongoing renovations throughout the Capitol complex. Long-term 
construction projects such as the Russell Senate Office Building's 
exterior rehabilitation will continue to affect various permit holders 
over the next 4 years. In collaboration with the AOC, we remain 
committed on limiting disruptions during the Thurgood Marshall 
Judiciary Office Building garage renovation. During fiscal year 2020, 
we will upgrade the permit management application process to streamline 
enforcement, enhance collection efforts, improve accuracy and deliver 
real-time updates from field Parking Specialists.
                         cybersecurity response
    We are in the fourth year of transforming cybersecurity from a 
reactive to proactive program defending the Senate. In the fiscal year 
2018 budget, the Appropriations Committee authorized 56 contractor to 
FTE conversions. As of February 28, 2019, we on boarded 49 FTEs and 
expect to have all 56 on board by September 2019. We developed a 
Cybersecurity Awareness Program to provide real-time, actionable 
information to users. This 3-pronged Partnership in Protection approach 
focuses on continued awareness sessions to offices, expanded academic 
collaboration, and completed rollout of a commercial cybersecurity 
training platform. The result was the completion of 50 Cybersecurity 
Awareness sessions to member offices, available to both D.C. and State 
staff, committees and support agencies. To add, 100 percent of all 
Senate staff completed training on cybersecurity principles using the 
commercial training platform and to assess the effectiveness of 
training, we continue to perform phishing tests against users. We will 
continue providing this training throughout fiscal year 2020 and update 
it based on adversarial threats.
    In fiscal year 2020, we intend to develop a methodology to perform 
advanced resiliency assessments for offices. These assessments--to 
include coordinated penetration tests, vulnerability assessments and 
advanced phishing assessments--will follow industry and Federal 
guidelines to determine the level of cybersecurity risk for Senate 
offices and provide suggested actions to mitigate risk.
                       cio security enhancements
    We continue to work closely with offices on multi-factor 
authentication (MFA) to enhance the security of Senate IT 
infrastructure. With the help of input from Senate offices, we procured 
an MFA solution in November 2018. In fiscal year 2019, we integrated 
the MFA solution with our Privileged Access Management (PAM) and 
Virtual Private Network (VPN) solutions and started piloting its use 
with these services in the SAA and with several offices. The pilot will 
run through May. Provided the pilot meets our expectations, we will 
expand enrollment to all Senate offices, completing deployment in 
fiscal year 2020.
    To address the ongoing need for increased security of highly 
privileged accounts, we expanded enrollment into PAM to include the 
accounts used to administer offices' Constituent Services Systems 
(CSS). PAM significantly increases the security posture of Senate 
information systems, protecting the most sensitive data by limiting 
exposure of privileged credentials and protecting access to those 
credentials with two-factor authentication. In March, we will begin 
offering PAM pilots to interested Senate Offices; we expect PAM to be a 
standard offering in fiscal year 2020.
    The Identity and Access Management (IAM) program will enhance data 
security by centralizing the on-boarding, identity maintenance, access, 
and de-provisioning of identities requiring access to applicable Senate 
systems. IAM implementation is underway with planned deployment during 
August 2019 through 2020. With the increased adoption of cloud services 
across the IT landscape, this program can extend access and identity 
governance beyond the local on-premises systems to provide the same 
security to the cloud and support our increasingly mobile workforce.
                    enterprise and network services
    Developing a hybrid cloud strategy remains a key goal during fiscal 
year 2019 and fiscal year 2020. We remain focused on a cloud strategy 
centered on moving appropriate software applications to cloud service 
after careful analysis of data protections. During fiscal year 2020, we 
will continue to evaluate bandwidth available to State offices and 
upgrade as necessary to support emerging technologies such as improved 
video conferencing capabilities between D.C. and a State office. We 
will also evaluate the feasibility of relocating the Alternate Data 
Center. Further, we will continue to replace, upgrade and modernize our 
infrastructure and products for some of our core offerings such as 
Internet protocol television, Domain Name Service/Dynamic Host 
Configuration Protocol, and VPN services. We have begun offering a full 
suite of virtualized solutions with the CSS being the most recent 
example. Which includes disaster recovery, enterprise backup and high 
availability.
    The CIO supports the IT portion of our Continuity of Operations 
programs through a variety of IT-related functions. In September 2018, 
we awarded a contract and started executing a significant radio 
infrastructure project, permitting the Sergeant at Arms to communicate 
with multi-agency interactions on encrypted equipment during exercises 
and real-world events. The support includes our Mobile Communication 
Vehicles, network and phone communications for Alternate Chamber 
Operations, Leadership Coordination Centers, Emergency Operations 
Centers, and Briefing Centers. We provide secure communication support 
to Senate offices and committees as required. The fiscal year 2020 
budget is postured to maintain this program.
               enterprise and system development services
    We continue to support the Secretary of the Senate on implementing 
a modernized Financial Management Information System. Three new 
financial modules are scheduled for initial implementation this year, 
with the remainder planned for completion in fiscal year 2020 and 
fiscal year 2021. In an effort to modernize the legacy voucher signing 
application, we worked with the Secretary of the Senate to evaluate and 
deploy a new digital and electronic signature platform. This platform 
now supports the digital signing of Senate purchase card statements and 
vouchers. For fiscal year 2019 and fiscal year 2020, we will work with 
our customers to expand an electronic signature capability, thereby 
reducing manual efforts and streamlining business processes.
    Working with Senate office staff, content providers and our 
colleagues in the office of the Secretary of the Senate, we 
collaborated to redesign and redevelop Webster, replacing the content 
management system; developing a new, more responsive services 
directory; and improving the user interface to expose valuable 
information more readily.
                       it support communications
    In fiscal year 2018, the SAA began expansion of the digital signage 
system to approximately 60 locations within the Hart, Dirksen and 
Russell buildings, with 54 new locations added over the next 5 years. 
The expanded digital signage system will display graphical wayfinding 
information and emergency notifications in addition to existing 
directory information and hearing schedules.
    The multi-year effort to upgrade and modernize the State office 
telephony infrastructure for all 470-plus State offices is underway and 
the first 50 offices have been completed. We expect to complete an 
additional 145 offices in fiscal year 2019 and approximately 220 in 
fiscal year 2020. It will provide each State office with new hardware, 
increased flexibility, a feature-rich voicemail platform, and 
additional security at a lower cost.
    We are currently evaluating the legacy telephone system for the 
Capitol and Senate buildings and plan to upgrade it, as well as the 
adjunct systems. This Unified Communications and Collaboration (UCC) 
platform will upgrade existing Voice Over IP telephone switch and 
associated subsystems, including, but not limited to, voice mail, 
instant messaging, contact center, integrated voice response systems, 
audio/video conferencing, and any other collaboration tools that 
support Senate offices. We have issued a Request for Proposal for 
subject matter experts to assist in requirements development and design 
for a new UCC platform and expect responses in mid-April. Our fiscal 
year 2020 budget requests reflects our estimated increase for this 
upgrade.
    The IT Help Desk addressed approximately 11,000 questions from 
Senate users annually in D.C. and State offices, taking trouble reports 
and coordinating the activities of the technicians who respond to and 
resolve the problems by phone, online and in person. In addition, the 
installation team completed more than 6,600 installation projects over 
the past 12 months. Since December 2017, we have coordinated the 
procurement efforts for the recompete to this contract scheduled to 
begin in fiscal year 2020. Based on lessons learned and user input, we 
have adjusted the deliverables to provide the Senate community with 
more responsive service from more highly trained technicians. The focus 
for the new contract includes: introducing more stringent Service Level 
Agreements with the vendor to increase customer satisfaction and adding 
Service Level Objectives to the performance based work statement to 
better measure success. The fiscal year 2020 budget supports this 
planned improvement, which will assist Senators and staff in meeting 
their responsibilities.
                          contingency programs
    We aim to improve continuity capabilities in the event of 
relocation, and we manage contingency planning efforts, to include the 
Senate's ability to operate an Alternate Chamber. Operational plans are 
developed and refined under the direction of the Joint Congressional 
Continuity Board and with the executive branch to sustain a common 
approach to continuity preparedness. We undertook several new 
classified planning initiatives in fiscal year 2018, which required 
comprehensive coordination. SAA staff facilitated open and constructive 
working relationships with critical partners and made significant 
progress on development of capabilities to ensure execution of our 
essential functions with minimal investment. This will ensure 
constitutional functions continue unimpeded during a contingency event.
    Our comprehensive exercise program underwent a transition in fiscal 
year 2018, resulting in a program focused specifically on continuity. 
The continuity exercise program conducted over 14 exercises, tests, and 
guided discussions. One example during fiscal year 2019 included the 
successful execution of a Mobile Capabilities Exercise with joint 
continuity partners such as the Secretary of the Senate, Party 
Secretaries, House, Architect of the Capitol, Government Publishing 
Office, and U.S. Capitol Police. This was a full-scale exercise 
conducted to evaluate the effectiveness of emergency plans that govern 
activities during a contingency event impacting the Senate Chamber. 
Exercise planners provided an objective, independent analysis of our 
programs and assisted in the validation and improvement of actionable 
plans by identifying strengths, improvement areas, and lessons learned. 
This approach continues to ensure we meet program goals in a manner 
that benefits all Senate and partner organizations. In fiscal year 
2020, continuity staff anticipate exercising multiple classified 
programs as well as an exercise of the Senate Alternate Chamber in SH-
216. This full-scale exercise will test the ability of the Senate to 
set up and operate an alternate Senate Chamber and select support 
offices in SH-216. Major components of this exercise will include an 
examination of the U.S. Senate Alternate Chamber Plan and the 
establishment of Chamber equipment, furnishings, broadcast, and 
connectivity to the Senate network.
                   printing, graphics and direct mail
    We provide support to the Senate community through graphic design, 
printing, photocopying, mailing, document preservation, logistics, and 
secure offsite transfer of Senate material. As good stewards of fiscal 
resources, we reduced equipment maintenance costs by approximately 
$125,000 through contract negotiation, saving more than $1,200,000 by 
locally producing charts for Senate floor proceedings and committee 
hearings, and reducing postage by more than $1,000,000 by pre-sorting 
and discounting 4.5 million pieces of outgoing Senate franked mail.
    We continue to refresh and expand our hardware, software, and 
production equipment to maintain and enhance the products and services 
rendered to the Senate community. Through software updates and enhanced 
training, we will continue to provide more integral communication 
opportunities by using digital technology to create both print and 
digital solutions for Senate offices throughout fiscal year 2019 and 
into fiscal year 2020. We also expanded our graphic design consultation 
service, first offered to the Senate community in fiscal year 2018. Our 
talented graphic designers are available to provide creative and 
technical expertise, and have held over 170 consultations since 
inception in January 2018. Our fiscal year 2020 budget request will 
allow us to provide a similar level of support as well as upgrade 
existing infrastructure by replacing outdated lighting in the portrait 
studio and continue to monitor technological advances in image capture 
and production, with a specific focus on silent cameras.
                           senate post office
    We test and deliver mail and packages to more than 180 locations 
within the Capitol complex, while providing a messenger service to 
multiple locations throughout the Washington metropolitan area. In 
fiscal year 2018, our office safely processed and delivered more than 
8.7 million incoming mail items while intercepting 156 suspicious 
mailings that required an immediate response by the USCP. We prevented 
delivery of an additional 720 mailings bearing characteristics with the 
intent to disrupt Senate business and requiring further scrutiny by 
USCP.
    Our office began replacing older Postal Sentry mail-screening 
workstations with the smaller Sentry Air System workstations in 2016. 
In fiscal year 2020 we intend to purchase additional mail screening 
workstations to ensure availability of the most current equipment for 
all State staff. Providing mail safety and security training for both 
D.C. and State offices remains vital to ensuring all Senate staff know 
how to respond to potentially dangerous situations. We offer the 
training through the web (static video), VTC, and webinars and 
accomplish it in coordination with our State Office Programs Group.
                           capitol facilities
    We support the work of the Senate by providing a clean, 
professional environment in the Capitol. Our Environmental Services 
Division cleans Capitol offices, hallways, and restrooms; moves 
furniture for offices; and provides special event setups for 15 meeting 
rooms in the Capitol and the Senate expansion space in the Capitol 
Visitor Center. The Furnishings Division provides furnishings, 
including stock and custom furniture, carpeting, and window treatments, 
to Capitol offices. They also provide framing services for Senate 
offices and committees. Their focus continues on realizing cost savings 
and improved efficiency, while maintaining the same level of service. 
Capitol Facilities ensures the highest level of service while the 
Senate is in session and has established standard operating procedures. 
Throughout fiscal year 2019 and into fiscal year 2020, we will focus on 
improving equipment to maximize safety and efficiency, and undergo 
upgrades to the online work order system that notifies staff of new 
work orders and tracks workloads.
                            support services
Transportation and Fleet Operations
    We procure, manage, and maintain Senate vehicles; operate the 
Senate Daily Shuttle service; and provide the Senate with emergency 
transportation and logistics support. The fleet includes trucks, vans, 
buses, SUVs, electric vehicles, handicapped-accessible vehicles, and 
Segways. In fiscal year 2018, staff transported more than 21,000 
passengers through the SAA Shuttle Service and our fiscal year 2019 
budget and fiscal year 2020 request have us postured to provide the 
same level of support.
Photography Studio
    We provide photo-imaging services for Senate offices and 
committees. Our studio manages and maintains the Photo Browser 
application that provides Senate offices a secure, accessible archive 
to all photos accumulated during a Senator's term in office. Currently, 
the Photo Browser system contains more than 1.5 million photo image 
files. In fiscal year 2018, our staff photographed more than 110,000 
images, produced more than 59,000 photo prints, and coordinated 
scanning for end of term archiving of more than 89,000 photo images for 
Senators leaving office. We are able to provide the same level of 
service in fiscal year 2020 as we did in fiscal year 2019 without any 
additional increase.
                        state office operations
    We established State Office Operations in fiscal year 2018 to 
consolidate and streamline State office support functions. We execute 
all leasing, tenant improvement, project management, security, and 
emergency preparedness functions for over 470 Federal, commercial, and 
mobile Senate State offices across the United States. Our staff works 
closely with commercial landlords, the General Services Administration, 
and the Federal Protective Service to ensure Members' operational and 
security needs are met in their State offices. In 2018, we completed 87 
relocation and renovation projects, coordinating construction, 
furniture, equipment, and delivery of IT services. We expect this 
number to double in 2019, as the team works to support new Members and 
all commercial lease renewals for the 116th Congress. In fiscal year 
2020, our State office support will continue, focusing mainly on moving 
new Members into permanent space and supporting off-cycle renovations.
    We remain committed to ensuring the safety of Members and staff, 
and continue to provide customized security systems, monitoring 
services, and enhanced office security construction designs to State 
offices without affecting Member office budgets. In 2018, we provided 
physical security enhancements to 24 new State offices, as well as 
enhanced security in 31 existing offices. Throughout fiscal year 2020, 
those numbers are expected to increase as we move new Members into 
permanent State offices and outfit each location with our recommended 
suite of security enhancements.
    Emergency preparedness training and familiarity with security 
equipment equates to higher levels of compliance and readiness. In 
2018, we trained more than 100 Office Emergency Coordinators, staff, 
and interns through 26 webinars, and provided security awareness 
briefings and active shooter training to 142 staff members at State 
offices. Our focus on readiness and training will continue through 
2020. We have worked closely with U.S. Capitol Police to update our 
security awareness and emergency preparedness curriculum and have 
planned for a 100 percent increase in the travel in order to provide 
on-site training in State offices. We will also continue supporting the 
requirement for State offices to comply with the Congressional 
Accountability Act: assisting them with the development of recommended 
emergency action and continuity of operations plans.
                        senate recording studio
    In 2018, we provided 1,536 hours of gavel-to-gavel coverage of 
Senate floor proceedings, including live streaming and archiving of the 
proceedings on the Senate's website, www.senate.gov. We also coordinate 
with other government agencies, such as the Voice of America and the 
Department of State, to provide hearings to a larger audience. Further, 
we enable Senators working in D.C. to communicate with their 
constituents and news outlets back home. In 2018, the Studio produced 
1,635 television productions, an increase of over 57 percent from the 
previous year, and 1,088 radio productions. Throughout fiscal year 2019 
and into fiscal year 2020, we have been systematically replacing the 
technical plant within the Recording Studio. Moreover, we are 
establishing a 30-year planning and programming document that will meet 
the audio/visual replacement needs for committee hearing rooms as well 
as other key meeting rooms within the Capitol complex.
                        periodical press gallery
    The Senate Periodical Press Gallery serves the needs of accredited 
news reporters for magazines, newsletters, non-daily newspapers and 
online publications. Serving as a liaison between reporters, Senate 
officials, and law enforcement remains our primary responsibility. 
Media presence on Capitol Hill has increased dramatically over the past 
few years. Our staff helps maintain crowd control in the Senate subway 
and the Ohio Clock Corridor during votes and party caucus meetings. We 
also coordinate press coverage of hearings, news conferences, 
stakeouts, and other media events in the Capitol and Senate office 
buildings. In addition, we review new press applications in 
consultation with the Executive Committee of Periodical Correspondents; 
renew approximately 1,000 press credentials each year; and maintain 
daily Senate floor logs on the Senate Periodical Press Gallery website 
(www.periodicalpress.senate.gov), which tracks legislative activity, 
votes, and schedule updates. Reporters and Senate staff are also kept 
informed about Senate legislative activity on the Gallery's Twitter 
account (@Senate PPG), which grew over 20 percent in 2018 to 8,900 
followers. Our 2020 budget request will allow us to continue providing 
the same level of service.
                          daily press gallery
    We issue approximately 1,600 credentials to journalists each year. 
As custodians of the largest press complex on Capitol Hill, we serve 
more than 100 reporters who work in the Press Gallery on a regular 
basis. Further, we control access to the Press Gallery inside the 
Senate Chamber, ensure gallery rules are followed, and coordinate with 
Senate committees on press coverage for hearings and other events 
around Capitol Hill. Our staff remains focused on modernizing services, 
streamlining the online credentialing process, and maintaining real 
time website updates on Senate floor proceedings and notifications to 
Senate staff and reporters via email and Twitter (@SenatePress).
                      press photographers gallery
    Our 2020 budget request allows us to continue to provide support to 
press photographers and representing news organizations from across the 
United States and around the world serves as our primary duty to 
ensuring a liaison between news photographers and Congress. Since the 
House of Representatives does not have their own press Photographers 
Gallery, our staff supports the press photographers and Congressional 
staff at House news events and hearings. We support press logistics at 
many high profile hearings and events and coordinate with other SAA 
offices, the U.S. Capitol Police, and Senate and House offices to 
ensure press photographers have access without interfering with the 
duties of the Congress. Equally important is our coordination of the 
press logistic plans for continuity of government.
                      radio and television gallery
    Our staff serves as the Senate's primary contact to the broadcast 
news, ensuring the Senate's broadcast coverage rules are followed. We 
function as liaison between Senate offices and the broadcast media. We 
issue approximately 3,500 credentials each year to television and radio 
reporters, producers, and technical personnel. We also maintain the 
studio and technical infrastructure Senators use for news conferences. 
In an effort to ensure live coverage capability, our staff conducts an 
extensive connectivity maintenance program, to include the fiber optic 
cabling throughout the Senate office buildings.
                           senate doorkeepers
    As Doorkeepers, we provide access to those with Senate floor 
privileges; enforce the rules of the Senate floor; and facilitate the 
needs of Senators, Senate floor staff, and Senate Pages. We provide 
support for a number of special events attended by Senators, their 
families, and special guests. Moreover, we process approximately 
200,000 visitors from around the world each year and ensure they can 
visit the Senate Galleries safely. In keeping with safety, we also 
undertake emergency preparedness roles balancing access and safety in 
the Senate.
                        senate appointment desk
    At the Senate Appointment Desk, we safely and efficiently process 
thousands of Senate guests each year for business meetings or other 
purposes. During fiscal year 2018, we processed approximately 230,000 
visitors through our network of Appointment Desks located on the first 
floor of the Capitol, in the basements of the Russell and Hart Senate 
office buildings, and in the Capitol Visitor Center. Of these, more 
than 108,000 visitors were in the Capitol complex for official business 
or for a meeting with a Member, a Member's office, or a committee. In 
addition, more than 29,000 international visitors relied on the CVC 
Appointment Desk for Senate Gallery Passes and information.
                            human resources
    Our office provides personnel services and advice to SAA managers 
and employees. In addition, we provide workers' compensation, ergonomic 
assessments, Americans with Disabilities Act accommodation requests, 
and recruitment services to the broader Senate community. During fiscal 
year 2018, the Senate Placement Office received 631 requests for 
recruitment assistance from Senate offices and processed 28,505 resumes 
from applicants seeking Senate employment.
    Our fiscal year 2020 budget justification requests a small increase 
to support the transit subsidy program for our employees. Further, 
throughout fiscal year 2019 and fiscal year 2020, we remain committed 
to work in concert with the Secretary of the Senate to streamline our 
human resource efforts to leverage the efficiencies offered by 
improvements to the HR information system.
               joint office for training and development
    As the Joint Office for Training and Development, we provide 
training to all Senate staff so they have the resources and skills 
needed to perform their jobs. We average about 3,000 attendees for in-
person classes and over 1,500 attendees for online courses annually. We 
facilitate conferences for State office staff, and provide customized 
training, facilitation services, and coaching to Member, committee, and 
support offices averaging, about 1,800 attendees each year. During 
fiscal year 2019, we will upgrade our online training and webinar 
software, validate the skills needed by Member and committee office 
staff, and continue to increase the library of online lessons created 
in-house.
    The mandated Health Promotion section provides health promotion 
activities and events for the Senate community. Each year, this section 
coordinates and hosts the 2-day Wellness Fair, which averages about 
2,000 participants in health promotion activities, including screenings 
for glucose, cholesterol, and blood pressure; exercise demonstrations; 
and seminars on topics, including healthy eating and cancer prevention. 
As of fiscal year 2018, we coordinated with the American College of 
Surgeons and the Stop the Bleed Coalition to provide bleeding control 
training for D.C. Senate staff. This lifesaving training started in 
fiscal year 2018 and will continue quarterly. Our fiscal year 2020 
budget postures us to continue providing needed education and training 
for the entire Senate.
                      employee assistance program
    Our Employee Assistance Program (EAP) offers a variety of 
emotional, behavioral and work-related support resources and services 
to staff, their family members, Senate Pages, and interns. In 2018, 
nearly 1 in 13 Senate employees used the services of an EAP counselor--
an increase of 15 percent over the previous year and a 52 percent 
increase in hours spent in direct service to Senate Staff. Further, 245 
employees took an online mental health screening, 45 managers requested 
a supervisory consultation; 2,355 employees attended an EAP training 
activity; and 1,951 employees accessed resources for personalized 
information and referrals addressing childcare, parenting, adult care, 
aging, education, legal concerns, and/or financial issues. Because of 
the increase in Senate use of the EAP, we moved one FTE from another 
source during fiscal year 2019 to ensure the EAP was staffed to best 
support the Senate. We believe the fiscal year 2020 budget and FTE 
count will continue to provide the same high level of support to the 
Senate.
                               conclusion
    I want to thank you for your bipartisan support to the SAA. The 
fiscal year 2020 Sergeant at Arms' budget request provides sufficient 
funding to maintain a focus on continual improvements to the security 
and support of the institution while remaining good stewards of 
taxpayer dollars. We will work closely with you to ensure we meet your 
needs in a timely and efficient manner.

    Senator Hyde-Smith. Thank you very much.
    Chief.
STATEMENT OF HON. CHIEF MATTHEW R. VERDEROSA
ACCOMPANIED BY:
        STEVEN SUND, CHIEF OF OPERATIONS/ASSISTANT CHIEF
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        GRETCHEN DEMAR, GENERAL COUNSEL
        MICHAEL BOLTON, INSPECTOR GENERAL
        GUS PAPATHANASIOU, FRATERNAL ORDER OF POLICE CHAIRMAN

    Mr. Verderosa. Thank you and good afternoon, Chairman Hyde-
Smith, Senator Murphy, and Members of the subcommittee. Thank 
you for the opportunity to present the Department's fiscal year 
budget for 2020. Our collaboration with the subcommittee and 
the Capitol Police Board has been key in our success in 
achieving our mission. I greatly appreciate the support that 
you all have given the Department and for your inherent 
understanding of our multifaceted mission to keep the Congress 
and the Capitol Complex safe and secure.
    I am joined here today by my Chief of Operations, Assistant 
Chief Steven Sund, Chief Administrative Officer Richard 
Braddock, and my general counsel, Gretchen DeMar, as well as 
members of my Executive Management Team. I am also joined here 
today by Inspector General Michael Bolton, and USCP Fraternal 
Order of Police Chairman Gus Papathanasiou.
    Our overall mission is clear: to maintain the level of 
protection necessary to balance access and security so that the 
Congress can fulfill its constitutional responsibilities. Over 
the past year, our officers have screened 11.2 million 
individuals at building entrances and interior checkpoints; 
we've managed an ever-increasing number of demonstrations which 
are approved for specific outdoor demonstration areas; we have 
secured and supported two Lying in State ceremonies and a Lying 
in Honor ceremony; and we managed responses to numerous 
instances of prohibited civil disobedience occurring across the 
Capitol Complex. In addition, we investigated numerous credible 
threats against Members of Congress.
    Last October, our Hazardous Devices Team safely contained a 
pipe bomb at the Congressional Mail Facility, one of 16 that 
were sent to elected officials and public figures across the 
country. The suspect was linked to several of the devices by 
evidence obtained from the package sent to Capitol Hill. Our 
work contributed to the identification of a suspect, which 
assisted the FBI in apprehending him within days.
    As law enforcement officers, we do not know what we may 
face each day. We train and prepare so that we can respond to 
any threat because lives depend on us. Our daily reality is 
that the Capitol Complex remains an attractive target to 
foreign and domestic terrorists. Each and every day we assess 
all potential risks and adjust our strategies to address the 
various threats. The Department continues to stay focused on 
ensuring that we stay current on the latest issues facing law 
enforcement, including new and emerging threats, and we're 
working to align the serious security realities with our 
strategic priorities within our available resources. Therefore, 
we have developed our fiscal 2020 budget request of $463.3 
million, which is an increase of 1.5 percent over last year's 
enacted levels with a focus on continuing to equip and prepare 
our workforce to be agile and responsive to the operations of 
Congress and to keep the Capitol Complex safe and secure. Our 
request includes a base funding for 2,072 sworn and 442 
civilian positions. The additional sworn personnel will be 
utilized to enhance the Department's ability to detect, impede, 
and address persistent threats that continue to increase and 
evolve.
    We're also requesting one civilian position, an additional 
civilian position, for the Office of Inspector General to 
conduct additional work related to cyber infrastructure and 
financial audits. In addition, our request includes funding for 
protective travel, the hiring and training of new sworn 
personnel, the management systems and technologies updates, and 
required supplies and equipment. This funding will also address 
increases in operating costs due to the required protective 
services and travel needed to secure the 2020 National 
Republican and Democratic Conventions as well as support the 
preplanning and preparation for the 2021 Presidential inaugural 
ceremony.
    Chairman Hyde-Smith, the type of policing that our police 
officers engage in is not typical of most police departments. 
Our officers interact with thousands of people each day, and 
they do it in a highly visible environment, and they balance 
this public interaction with the need to be prepared at all 
times to respond to potential threats and other emergency 
situations. We understand that working for Congress requires 
both maintaining an impeccable work ethic and accountability. 
In this regard, I want to assure the subcommittee that my team 
and I will continue to work closely with you and your staffs to 
ensure that information about the Department and its operations 
is provided in a timely and consistent manner.
    I'm honored to lead an organization that takes such pride 
in our mission and great responsibilities which we bear. 
Mission focus is key to our ability to be successful, to serve 
and protect, and to ensure that our employees go home safe 
every day.
    Again, thank you for your continued support of our 
Department and the workforce as we carry out our important 
mission. And I thank you for the opportunity to discuss the 
Department's 2020 fiscal year budget request. I'm pleased to 
answer any questions that you have.
    [The statement follows:]
         Prepared Statement of Hon. Chief Matthew R. Verderosa
    Chairman Hyde-Smith, Senator Murphy, and Members of the 
subcommittee, thank you for the opportunity to present the United 
States Capitol Police (USCP) budget request for fiscal year 2020. I am 
joined here by some members of my Executive Management Team, as well as 
my Executive Team: Chief of Operations, Assistant Chief Steven Sund; 
Chief Administrative Officer Richard Braddock, and General Counsel 
Gretchen DeMar. Also joining me are Chief Financial Officer Dominic 
Storelli; Inspector General Michael Bolton; USCP Fraternal Order of 
Police (FOP) Chairman Gus Papathanasiou, and USCP International 
Brotherhood of Teamsters Chair Karen Gray-Thomas.
    Mr. Chairman, the support of the subcommittee, the Congress, and 
the Capitol Police Board has contributed to our success in achieving 
our mission, as well as our ability to recognize and address the 
dynamic nature of current threats. We greatly appreciate the support 
that you and your staff have given the Department, for your 
collaboration with our leadership team, and for your innate 
understanding of the complexity of our mission and the challenges we 
face.
    Since 1828, the United States Capitol Police has steadfastly 
protected the United States Capitol. In fact, in 1801, a lone watchman, 
John Golding, was charged with taking ``as much care as possible of the 
property of the United States,'' before construction was completed on 
the Capitol Building.
    In the 191 years that have passed, much about the Department has 
changed, but our mission is fundamentally the same: To protect the 
Congress--its Members, employees, visitors and facilities--so it can 
fulfill its Constitutional and legislative responsibilities in a safe, 
secure, and open environment.
    We consistently work to maintain the level of protection necessary 
to balance access and security. Over the past year, the Department has 
managed an ever-increasing number of demonstrations; has secured and 
supported two Lying in State ceremonies and a Lying in Honor ceremony; 
has swiftly responded to critical incidents and civil disobedience, 
most notably during the Senate Judiciary Committee hearings last fall; 
and, has investigated numerous, credible threats against Members of 
Congress or the U.S. Capitol.
    In 2018, USCP officers screened 11.2 million individuals at 
building entrances and interior checkpoints. On any given day, there 
are numerous permitted activities in the various outdoor approved 
demonstration areas. Daily, the Department facilitates the free 
exercise of First Amendment rights of individuals and coordinates these 
activities based on Capitol Police Board regulations under the Traffic 
Regulations for Capitol Grounds.
    With the addition of pre-screener officers at numerous posts 
outside of the Senate and House office buildings, we have increased our 
abilities to better secure and screen at building access points, and 
thereby reducing the Capitol Complex's exposure to threats. Officers 
are posted to observe the public entering the buildings; provide direct 
communications with the interior officers in the event of an emergency; 
engage observed armed individuals; and, serve as a visible deterrent to 
those desiring to attack an entrance. The ultimate goal in deploying 
the pre-screeners is to identify and mitigate threats before they reach 
the interior security screening checkpoints. An added benefit to 
utilizing pre-screeners is that they also monitor and manage the lines 
of people queued to enter the buildings. The Department is sensitive to 
ensuring a positive visitor experience and our officers re-direct 
visitors to other entry doors for screening, which also enhances their 
overall safety and security.
    In October, our highly-trained Hazardous Devices Section personnel 
safely contained a pipe bomb at the Congressional Mail Facility, one of 
16 that were sent to elected officials and public figures across the 
country. Our team also worked with the FBI to ensure that evidence was 
preserved to assist in the FBI identifying the suspect. The FBI 
Director noted that the suspect was linked to several packages from a 
fingerprint lifted from the package sent to Capitol Hill. This work led 
to the apprehension of the suspect within days of delivery of the pipe 
bombs.
    Our special agents in the Investigations Division are aggressively 
pursuing all leads and investigating threats from many sources. As a 
result of the June 2017 baseball practice active shooter incident, 
there is a heightened awareness by Members and their staffs of how 
important it is to be aware of their surroundings and the actions of 
others for their own personal safety and security. Individuals are now 
more apt to report unusual activities. We have continued to see the 
number of threat assessment cases that we open and investigate grow 
each year.
    The Department maintains a significant, visible presence throughout 
the Capitol Complex and other venues where groups of Members are 
assembled. This includes having a security presence even where we are 
not physically located. We routinely collaborate with the Senate and 
House Sergeants at Arms to assess Members' State and district office 
security and provide recommendations on ways to improve and enhance 
security measures and practices. We also continue to provide security 
awareness briefings for both local and district staff.
    As law enforcement officers, we do not know what we may face each 
day. We train and prepare so we can respond to any threat in an instant 
because lives depend on it. We must be cognizant of any potential 
threats at all times. The reality is that the Capitol Complex remains 
an attractive target to foreign and domestic terrorists; therefore we 
must continually assess the risks and adjust our strategies for 
addressing any threat. We are constantly working to ensure that the 
Department's tactics do not become predictable or routine, and that our 
personnel are always prepared. It is with this in mind that we have 
worked to align these security realities with our strategic priorities 
and resources.
    The Department continues to grow and transform to address new and 
emerging threats. We have also made great strides in implementing law 
enforcement best practices to further our strategic efforts as a model 
law enforcement agency. Therefore, we have developed our fiscal year 
2020 budget with a focus on continuing to equip and prepare our 
workforce to be agile and responsive to the operations of Congress, and 
keeping the Capitol Complex safe and secure. Our fiscal year 2020 
request is $463.3 million, and represents an increase of only 1.5 
percent over fiscal year 2019 enacted levels to meet mandatory salary 
requirements, overtime for critical training, and general expenses.
    The Department's greatest assets are its employees. And, for this 
reason, the Department is committed to working closely with the Capitol 
Police Board and Congress to ensure that we continue to invest our 
resources into training, updating and replacing key equipment and 
systems, and ensuring that our employees have the tools they need to 
successfully do their jobs as well as advance their careers within the 
Department. The Department implemented a number of new initiatives over 
the last year that I believe will enrich our employees' professional 
and personal development. These initiatives include, but are not 
limited to, a new performance evaluation and communication system; 
promotional processes for the ranks of Deputy Chief, Inspector, 
Captain, Lieutenant, and Sergeant; a new employee recognition program; 
anti-discrimination and anti-harassment training; and more 
opportunities to attend professional development training and 
conferences.
    As Chief, it is my goal to recruit and retain officers who reflect 
the makeup of those working in and around the U.S. Capitol as well as 
those visiting and engaging in the legislative process. It is also 
imperative that we build a strong leadership bench to build upon the 
Department's legacy with a clear eye toward its future. In the coming 
months with guidance and assistance from our Diversity Officer, the 
Department will be implementing a formal mentoring program as well as a 
peer support program. We also will be updating the Department's 
strategic plan to specifically include diversity, equity, and inclusion 
within the plan's overall goals and objectives. Further, the USCP will 
be developing sub-strategic plans addressing human capital management, 
recruiting and retention, training, succession planning and career 
development, and diversity, equity, and inclusion. These consolidated 
efforts will help to ensure that the Department continues to provide a 
holistic framework to imbed these efforts into all aspects of the 
Department.
    As with all law enforcement agencies, personnel salaries and 
overtime make up the majority of our annual budget. We regularly 
analyze our workforce distribution to align job functions, assignments, 
workload, risk management, and organizational readiness, along with the 
threat assessments and mandatory mission requirements, within a dynamic 
environment.
    Our fiscal year 2020 budget includes base funding for 2,072 sworn 
and 442 civilian positions. These additional sworn personnel will be 
utilized to enhance the Department's ability to detect, impede, and 
address threats that currently exist and continue to evolve. 
Additionally, we are also requesting one civilian position for the 
Office of Inspector General for the purposes of conducting additional 
work related to cyber infrastructure and financial audits.
    To support these efforts, the fiscal year 2020 funding request 
reflects a 0.87 percent increase over the fiscal year 2019 enacted 
level for personnel costs. This increase is necessary to fund the 
overtime needs of the Department for the 2020 Republican and Democratic 
National Conventions.
    As you are aware, the Department's current sworn staffing levels do 
not provide the complete and necessary resources to meet all of our 
mission requirements within the established sworn officer utility or 
the number of work-hours in a year that each officer is available to 
perform work. This utility number is used to determine overall staffing 
requirements. It balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements. 
These known requirements include post coverage and projected 
unscheduled events such as demonstrations, late-night sessions, and 
holiday concerts. The utility number also estimates unfunded 
requirements that occur after the budget is enacted, such as unforeseen 
critical emergency situations, and providing adequate police coverage 
of congressional hearings.
    Because of the need to fill the mission requirement gap through 
overtime, the Department must also utilize overtime to ensure that 
officers can be offline for training, while meeting our daily mission 
requirements. There are flexibilities that other law enforcement 
agencies have to offset or defer daily requirements to allow for 
officer training that our unique mission does not afford us.
    Therefore, mission requirements in excess of available personnel 
must be addressed through the identification of efficiencies such as 
post realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. Based on the requested staffing levels for fiscal year 2020, 
the Department's overtime projection is approximately $47 million. This 
amount will cover base mission requirements, Republican and Democratic 
National Convention support, our support of non-reimbursable events at 
the Library of Congress, and the ability for sworn employees to be 
backfilled while they attend mandatory and essential training.
    For the Department's General Expenses budget, our request includes 
items such as protective travel; hiring, outfitting, and training new 
sworn personnel; supplies and equipment; management systems and 
technology upgrades; and other non-personnel needs. We are requesting 
$85.3 million for general expenses, which is an increase of $3.8 
million over the fiscal year 2019 enacted level. This funding will 
address increases in operating costs due to the required protective 
services and travel needed to secure the 2020 Republican and Democratic 
National Conventions, as well as to support the pre-planning and 
preparation for the 2021 Presidential Inauguration ceremony.
    As the Chief of Police, it is my fiduciary responsibility to look 
at every opportunity within the Department to accomplish our mission 
before asking for additional resources. In order to ensure consistent, 
transparent, and effective management practices, as well as measure our 
successes, we regularly benchmark our efforts to nationally recognized 
standards set by professional law enforcement organizations such as the 
International Association of Chiefs of Police, Police Executive 
Research Forum, and the Commission on Accreditation for Law Enforcement 
Agencies, Inc.
    For the past 9 years, we have implemented uniform procedures to 
effectively measure and justify USCP planning, program, and resource 
requirements through a comprehensive, standardized, and repeatable 
management process that we call the ``Force Development Business 
Process.'' It provides a transparent decisionmaking process that 
includes reviews and approvals by an Investment Review Board made up of 
key agency management, and it provides a structure that is results-
driven and based on meeting operational needs. In addition, to ensure 
the accuracy of our budget request, our fiscal year 2020 budget went 
through multiple layers of review and validation, and is tied to 
supporting documentation for each budget element.
    Our Executive Management Team, and the Department as a whole, has 
also benefitted from the assistance of the USCP Office of Inspector 
General (OIG). The OIG routinely conducts audits, reviews, and 
investigations and makes recommendations to the USCP for business 
improvements, including audits of our programs that I have requested. 
The Department continues to make significant progress in closing OIG 
recommendations. Since the OIG was established in 2006, the Department 
has successfully closed 90 percent of the 416 recommendations made by 
the OIG.
    I value the OIG's assistance in our efforts to further improve our 
operations and performance. Michael Bolton was selected in January by 
the Capitol Police Board to serve as the third USCP Inspector General. 
He had served as the Acting Inspector General since March 2018, and 
also served as Assistant Inspector General for Investigations since 
August 2006. I appreciate the OIG's assistance in our efforts to 
further improve operations and performance. I also am pleased to report 
that the Department received its seventh consecutive unmodified 
``clean'' opinion on our fiscal year 2018 financial statements from the 
OIG. The long-term resolution of recommendations related to internal 
controls, business processes, and material weaknesses remains of the 
highest importance to me and our management team.
    I also work closely with the Fraternal Order of Police Labor 
Committee leadership on a host of issues of mutual concern. We have 
collaboratively worked to implement policy and procedures, as well as 
address the concerns of the rank and file. While we sometimes see 
issues through different lenses, the Chairman of the Labor Committee 
and I both want what is best for our employees. We understand that 
working for a police department requires maintaining an impeccable work 
ethic and requires accountability as we, as United States Capitol 
Police officers, are held to a higher standard. We and our staffs work 
diligently to ensure that we come to a resolution on topics with the 
shared goal of supporting our overall mission.
    Madam Chairman, the United States Capitol Police is the only police 
department in the Nation that does what we do and with the high 
visibility in which we do it. Mission focus will always be the key to 
our ability to be successful, to serve and protect, and to ensure our 
employees go home safe every day. The Congress relies on us to do our 
jobs so that you may do the people's work in a free and open manner.
    In closing, I want to assure the subcommittee that the United 
States Capitol Police is committed to always being at the ready to 
ensure that the Capitol Complex is safe and secure. Our fiscal year 
2020 budget request was developed with great thought and discipline to 
ensure that the necessary mission requirements were at the forefront of 
our planning and prioritization.
    We will continue to work closely with you and the subcommittee 
staff to ensure that we meet the needs and expectations of the 
Congress, as well as our mission, in a reasonable and responsible 
manner. Again, I thank you for the opportunity to discuss the 
Department's fiscal year 2020 budget request, its priorities, and 
activities. I would be pleased to answer any questions that you may 
have.

    Senator Hyde-Smith. Thank you very much.
    Now we will recognize Senator Murphy for any opening 
statements he may have.
    Senator Murphy. I'm happy to continue with the witness 
testimony or with questions. Thank you very much.
    Senator Hyde-Smith. Senator Van Hollen.
    Senator Van Hollen. Thank you just--thank you both for your 
service and I look forward to working with you and the Chairman 
and Ranking Member on the budget.
    Senator Hyde-Smith. Okay. I will start with my first 
question for Mr. Stenger. In the Sergeant at Arms budget 
request, it states that the Cybersecurity Division is working 
to develop a 5-year strategic plan to bolster the Senate 
cybersecurity posture and to modernize network infrastructure. 
How will that plan build on the investments that we've already 
made? And when do you envision having that completed?
    Mr. Stenger. Mrs. Chairman, in 2016, we saw the need to 
develop, harden, and modernize our systems to make them more 
user-compatible. We have been moving forward since that time. 
By the end of 2019, we will be up to 91 percent of the hires 
that we were authorized. It's a difficult environment to hire 
in due to the technical expertise that we're looking for. It's 
very competitive. I'm sure when more technical companies move 
here, it's probably going to be even more difficult to hire and 
retain people.
    So we move forward. We've recently worked with the Rules 
Committee to do a cyber awareness training program, which 
everyone was required to complete. I believe that in fiscal 
year 2020, when we move forward with this budget, we'll be 
ready to execute and implement the systems and the security 
systems that we talked about doing a year, year and a half ago.
    Senator Hyde-Smith. You have mentioned recently increased 
hiring with the Cybersecurity Division. Given the high demand 
that you just described with the technical expertise that 
you're looking for, and competition with other agencies, have 
we been able to hire the qualified staff we need for those 
initiatives as well?
    Mr. Stenger. Mrs. Chairman, I think we have. We look at 
each hiring individually. We want to hire people that have the 
technical skills, the loyalty, and the desire to work here, 
even sometimes at a reduced salary that we can offer.
    And the other thing that we have to be concerned about is 
ensuring we hire the right people. We are not just concerned 
about their technical skills, we are also concerned about the 
potential insider threat. You want to make sure you're hiring 
the right type of people here.
    Senator Hyde-Smith. And we appreciate that concern no 
doubt.
    Do we have any questions from anyone else?
    Senator Murphy. For both of our witnesses?
    Senator Hyde-Smith. Yes.
    Senator Murphy. Certainly. Thank you, Madam Chair.
    I'm sorry that I was just coming from the vote, so I missed 
your prepared testimony, and so maybe I'm asking you to repeat 
some pieces of this.

                       MEMBER SECURITY OFF-CAMPUS

    Chief Verderosa, you and I have had a number of 
conversations over the years about security for Members off-
campus. I think I heard you finishing maybe some prepared 
testimony. We set up in this last budget a new allocation of 
money to be used to stand up additional capacity to cover 
Member events off-campus. Can you just give an update onto how 
that money is being spent?
    Mr. Verderosa. Certainly. We have been employing that 
funding in a number of ways based on the number of protective 
details. In 2018, we had a significant number of events. In 
2019--we already have had 47 events. That is, 47 events and 6 
law enforcement coordinations. That's about the number, I 
believe, that we did last year. We already have 69 future 
events prepared. We've spent about 65 percent of the 
appropriated funding for these particular National Capital 
Region events. We're working very closely with Mr. Stenger's 
office to ensure that we get the information.
    I think there has been a great increase in the number of 
events, which we have become aware of in terms of protection 
coverage in this area. We look at protection from a global 
perspective, so it's not singularly putting DPD, dignitary 
protection agents, at an event. We look at the total assessment 
for the event, and we'll deploy those resources necessary. They 
can differ based on the venue, the type of event, the number of 
Members that are attending.
    Typically what happens is we'll have a perimeter secure, 
we'll have the assets available to respond to any type of 
situation, whether it's an individual or group. We'll have 
protective intelligence teams out. We also have uniform 
presence as well as plain clothes presence. If the venue is 
required based on if it's an outdoor event, those types of 
things, we can have our tactical team respond as well as do 
hazardous device sweeps and canine sweeps prior to the event.
    I think we have partnered very closely with not only the 
Sergeant at Arms office but also our local law enforcement 
partners. We recently hosted at COG, the Council of 
Governments, Chiefs Committee. We gave a briefing to the other 
chiefs in the area based on what our needs are, and we've 
solicited their assistance, and we've gained great assistance 
in the local areas in and around Washington, D.C., for those 
events which require us to not only deploy, but would require 
additional local response based on whether we know if there's 
any demonstration activity or any type of activity that would 
be handled in a non-protective way, such as local law 
enforcement action.
    We're very appreciative of the funding that we have gained, 
and based on what we have in the hopper already in terms of 
future events, it's going to be very busy the rest of the 
fiscal year.
    Senator Murphy. And, Mr. Stenger, this obviously relies on 
the right information getting to Capitol Police. And there's a 
subset of activities that you know about, that you may be 
involved in, coordinating when there are big movements of 
Members for official activities. But, of course, there's a 
whole other set of activities that are political in nature in 
which you have big numbers of Senators or House Members in a 
particular place that may not involve immediate notification or 
the knowledge of the Sergeant at Arms. How, if at all, have you 
changed your protocols in making sure that all of that 
information gets to the Capitol Police and the burden is 
appropriately placed on everyone, including Members' offices, 
to let the Capitol Police know when there are large gatherings 
of Members off-campus?
    Mr. Stenger. Senator, we created a section in the Sergeant 
at Arms called the Member Outreach and Security Coordination 
Section, which sends out a message every week, every Monday, to 
the Members and the staff, chief clerks, chiefs of staff, 
schedulers, asking for any information they would have as to 
any activities, events with which the Member may be involved. 
If there are any concerns, or even if they don't have concerns, 
we ask them to provide that information. We coordinate that 
with our Situational Awareness Team, which scours the Internet 
for many things, such as threats or activities that are taking 
place. We do this in conjunction with the Capitol Police.
    You're correct, the information that we really seek is from 
the staff as to what's going on. And they should never be 
hesitant to provide us something. It's no burden on us. We've 
created this unit. We work very closely with the Capitol 
Police. We encourage people, anytime there's an event to report 
it. It doesn't have to be in a State office, that can be right 
here in town. So we've had over 200 events shared since October 
1, 2018. It's an 87-percent increase since we started sending 
out this notification and created this organization. We 
encourage people to continue to let us know.
    Senator Murphy. Thank you for that. And the need is there, 
as evidenced by those numbers.
    And then, Mr. Stenger, again, you may have done this in 
your opening testimony, but can you just provide an update on 
the Senate working group that was convened to talk about the 
coverage for our personal devices? Senator Van Hollen and I 
have been in a couple briefings in the last few weeks that I 
think left all of us more concerned and more worried than we 
already were about the threats to our personal devices and has 
left me more befuddled as to why we don't just simply include 
these devices under the umbrella of what is protected by the 
services that you offer.
    One of the options that I think was discussed at the 
working group level was to provide an opt-in ability for 
Members and Members' offices to receive services and advice 
from the Senate Sergeant at Arms. And so I guess my question 
would be, if that was the direction we were to pursue, do you 
have the capability to do that with current levels of support 
staff or would you need additional capacities?

                       SECURING PERSONAL DEVICES

    Mr. Stenger. Yes, Senator, we facilitated the working group 
and had a number of members, as you're aware, that provided 
input. One of the things that I would give a little history on 
is that some years ago people would hack and try and get your 
financial information for financial benefit. Now they hack for 
information. They try to get information, whether it's hacking 
or just picking up a piece of paper with the information, 
because information about people and things has value. So 
you're right, it has expanded and will continue to expand 
because it's not only that these groups target you, they will 
target your family members if they can get the information.
    So the working group came up with five options, and each 
one requires more escalation with other groups, whether it's 
Rules or Appropriations. The easiest one to do, which we've 
already started to implement, is status quo with enhancements, 
which means we are going to be much more proactive by going out 
to talk to the staff and the Members and the folks up here 
about advisories, training, information sharing, and a few 
other things to make sure they're aware of the issues that are 
out there.
    There was an old adage about an educated consumer or user 
is our best customer, and that's probably true of today's 
environment. The second level that we would go to is what you 
just discussed, where the Sergeant at Arms would seek 
cybersecurity companies to provide security from threats. That 
would be the next level up, but would require some changes to 
law and possibly a change in appropriations. I couldn't say at 
this time until I saw how in-depth we would do that and what 
level we would take it to, but each one after that requires a 
little bit more action, interaction, on our part. And I would 
imagine that as you step it up, there will be incremental 
increases in our budget requests. I think we would need to 
bring in all the others that have to decide to determine what 
legal and statutory changes would have to be addressed or 
enacted.
    Senator Murphy. I'll just make my case one more time for 
those that haven't heard it. I think we have a double standard 
today. I think that when there is a threat to our personal 
security that is serious enough for around-the-clock 
protection, we get it, really no questions asked. We have 
coverage here and we have coverage in our private life if there 
is a round-the-clock serious threat to our personal security.
    We don't recognize that same standard when it comes to our 
cybersecurity. If there is a threat to our personal devices, we 
still tell Members they have to deal with that on their own 
time with their own budget. And so I simply think it's time to 
apply the same standard we do to personal physical security to 
cybersecurity, understanding that that may take changes in 
statutes, changes in rules, or changes in appropriation. I just 
think for all of the information we've got about how under 
threat our personal devices are at home and in our pockets, we 
should square this circle as soon as possible.
    Thank you, Madam Chair.
    Senator Hyde-Smith. Senator Van Hollen.
    Senator Van Hollen. Thank you, Madam Chair.
    And thank you both again for your work and thank you and 
your teams for your professional response to the pipe bomb 
threats last October. If I recall, one of the pipe bombs found 
its way into one of the mail sorting facilities in Capitol 
Heights, Maryland, and I think it was addressed to 
Congresswoman Maxine Waters. So I just--I know both of your 
teams had responsibility in different parts of that in 
responding to it, so thank you for that.
    You know, my two colleagues here have really asked many of 
the questions I had, which relate to cybersecurity.
    So let me just ask you, Mr. Stenger, and I know we're not 
in a--we're in open setting. But I think everyone recognized 
the threat your team did. You hired more people. I understand 
your update on where you are on that hiring. What is your 
assessment right now of the threats, cyber attacks, made 
against Senate offices? In other words, efforts on a daily 
basis for folks to try to hack into the Senate systems, through 
Members or through our staff? What is your assessment of that 
threat today?

                             CYBERSECURITY

    Mr. Stenger. Well, it continues. It continues to be a 
problem and it's a threat. People are going to want 
information, they want information about you, they want 
information about other people that has value. We continue to 
recognize the threat that's out there. We are looking at our 
systems and we're dealing with the intelligence community, with 
the law enforcement community, with the Capitol Police, and 
with the private sector----
    Senator Van Hollen. But can you--can you quantify that? I 
don't think it's--you know, classified, just sort of talk about 
what you sense on a daily basis in terms of the efforts to hack 
into the Senate systems.
    Mr. Stenger. Well, it goes on. It would be hard to quantify 
how many, but it's a fairly substantial amount. I mean, these 
are almost like robocalls to some degree. It could be 
individuals up to organized groups, but they're not necessarily 
sitting there trying to do an individual phone hack or 
computer, it's almost like robocalling, they're just sending 
out. So these things go on 24 hours a day, 7 days a week. So 
it's difficult to say come up with a quantification of the 
numbers, but it's a large amount.
    Senator Van Hollen. How about foreign governmental threats, 
hacking efforts?
    Mr. Stenger. Well, it's--it's kind of difficult for me to 
go into too much in an open hearing like this, but rest assured 
that information has value, so everybody recognizes that, and 
like I said, whether it's malicious actors that are individuals 
or organized groups or funded by someone else. Value is value. 
That is what they want. It is difficult for me to go into 
specifics here, but people want information.

         USCP RELATIONSHIP WITH OTHER LAW ENFORCEMENT AGENCIES

    Senator Van Hollen. I would just, you know, share the 
sentiments expressed by Senator Murphy. It seems to me to be a 
vulnerability in the overall system when--when people could 
hack into some of the personal information devices.
    To the chief, I know you work on a regular basis to 
establish good relationships with local law enforcement in 
States and around the country. How--how is that going? Do you 
feel that you're getting the kind of responsiveness that you 
need in terms of local law enforcement when you're, you know, 
trying to establish relationships? And do you try and work 
those relationships out before there is a specific threat?
    Mr. Verderosa. We do, sir. We do. In the National Capital 
Region, it's very easy obviously. We meet regularly, 
particularly here in the District. I meet regularly with the 
Assistant Director in charge of the Washington Field Office of 
the FBI, with the United States Secret Service Director, Mr. 
Alles, Chief Newsham, of the D.C. Metropolitan Police, the Park 
Police, and all of our partners. And, you know, our dignitary 
protection agents travel throughout the country with the 
congressional leadership, and we also cover numerous other 
Members when they're attached to CODELs or any other type of 
organized events.
    But we also do, on a daily basis, outreach and security 
coordination for Member offices. We reach out. And part of that 
outreach and coordination is doing assessments of public 
events. We do an assessment of both open- and closed-source 
information, and we reach out to the local partners, whether 
it's a city police department, a sheriff's office, the State 
police, or even other Federal agencies when we have events that 
are occurring. So we virtually have feelers all over the 
country every day. For instance, since calendar year 2019, 
we've done 158 law enforcement coordinations, and we did 51 
other outreaches to congressional offices, but part of that is 
contacting the local police departments.
    I also attend national conventions, and I also meet with 
chiefs that come to Capitol Hill whether they are visiting 
Members of Congress or here visiting the city on a law 
enforcement issue.
    We work very cooperatively. I find that we get, in 
virtually every instance, complete cooperation whenever we have 
a tasking or a request. In terms of our investigation and 
enforcement actions, when we reach out to another jurisdiction 
because there is a credible threat against a Member or 
direction of interest case, which we may also use local laws, 
when charging a suspect we get tremendous response. They 
partner with us when we deploy our agents. They will conduct 
interviews for us. They will do security checks of District and 
State offices as well as Member residences with a credible 
threat. And then, of course, we work hand-in-hand with the 
joint terrorism task forces. We have task force officers on a 
number of joint task forces. And we partner with the FBI on all 
of these threat investigations, and, you know, in terms of even 
with the U.S. Attorney's Offices throughout the country, we are 
partnered, we're embedded, and I couldn't ask--I couldn't be 
happier with the level of cooperation that we get.
    Senator Van Hollen. Thank you.
    Can I have one?
    So the Silver Spring incident, you know, the individual in 
Silver Spring, Maryland, was that a case that was on your radar 
screen for a while? How did--which law enforcement agency was 
first----
    Mr. Verderosa. We worked with the FBI.
    Senator Van Hollen. Okay.

                   5-YEAR PLAN FOR ENHANCED SECURITY

    Senator Hyde-Smith. Chief Verderosa, your budget request 
this year includes funding for the final year in the agency's 
5-year plan to mitigate certain concerns and meet expanded 
mission requirements, such as the House garages and enhanced 
screening in the House and Senate chamber galleries. The plan 
would add an additional 57 sworn personnel for prescreening, 
dignitary protection, and intelligence needs in the fiscal year 
2020 budget. What is the timeframe for having the mission 
requirements of the 5-year plan fully covered?
    Mr. Verderosa. We should be able to complete the multiyear 
plan in 2020 based on the funding requests and the salary 
requests, assuming that our recruiting and our hiring process 
continues at the pace that it's at. We look at security from 
the global perspective in terms of keeping the threat as far 
away as we can. Working with the Board to close those 
vulnerabilities was very important. Also, to provide a visible 
physical deterrent at doors in the office buildings was a top 
priority. And we've been able to accomplish significant 
progress with that. And with the continued hiring and training 
in 2019 as well as the future in 2020, we should be able to 
complete that mission I believe on time, on budget, and on 
schedule.

                 OUT-YEAR COSTS TO SUSTAIN SWORN FORCES

    Senator Hyde-Smith. Great. While the requested increase for 
2020 is relatively small compared to the requested increases in 
previous years, I worry that we will have additional costs in 
future years to sustain the size of the force, especially after 
adding another 57 sworn officers. Please tell us what we might 
expect in terms of costs to maintain a force this size in the 
years to come.
    Mr. Verderosa. Sure. You know, based on the outlook in 
terms of our projections, we were fortunate this year because 
of the timing of our training classes that we were able to 
absorb the hiring costs within our 2019 budget and scheduled 
training to a point where we didn't need to ask for even half 
year funding for those individuals. We will be making a request 
in future years to support that salary level. And I don't have 
the exact dollar figure now, but I can certainly submit it to 
your staff and get you that number.
    [The information follows:]

    The additional out-year cost will be approximately $4.8 Million in 
salaries and benefits to have 57 more officers on the force.

                          RECRUITING STANDARDS

    Senator Hyde-Smith. Okay. Again, noting the growth in 
recent years, have you been able to keep pace with recruitment 
while continuing to meet the standards we expect in our USCP 
officers?
    Mr. Verderosa. I appreciate the question. Recruiting is a 
phenomenon in this area because there are so many law 
enforcement agencies that are vying for really good top-flight 
candidates. We partner with USAJobs and we have both an in-
person and electronic process to attract candidates this year, 
and it is becoming increasingly difficult to find candidates 
that meet the standards. And the one thing I would note is that 
we don't lower our standards, we wait until we find the right 
people. And with that, we are able to go out, and we started a 
new program which takes officers who are in the field who meet 
certain criteria, have well-established records, who represent 
the Department well, to go out and partner with our background 
investigation team to recruit actively.
    We've been fortunate. Over the last few years we haven't 
had to send our recruiters out. We target-recruit military and 
educational institutions, but we haven't had to do as much 
physical recruiting going out and going to the job fairs as 
we've done in years previous. We are starting up this program 
and we're going to actively seek more candidates as we go 
forward now. It was time to make that adjustment.

              IMPLEMENTING A MANDATORY FITNESS REQUIREMENT

    Senator Hyde-Smith. Okay. Chief Verderosa, in the report 
you provided to the committee outlining the feasibility of 
implementing a mandatory physical fitness program, you 
highlighted certain legal, logistical, and cost implications. 
What do you see is the biggest hurdle to implementing a 
mandatory fitness requirement?
    Mr. Verderosa. There certainly are logistical, legal, and 
other essential function questions that have to be resolved 
before we can implement a physical fitness program. We're 
taking the approach with wellness in that we're looking at it 
from a greater perspective than just physical fitness.
    One of the areas that we're going to focus on, in 
partnership with the Office of Employee Assistance and 
partnership with the House Wellness Center, we are looking at 
trying to relieve our officers of concerns and issues which 
affect their ability to be here at work, to be productive 
employees, and that goes into not only physical health, but 
also mental health, mindfulness, the wellness program, 
financial health, and we're looking at sort of a whole person 
perspective because if you have a focused, more efficient 
person who does not have to worry about day care, does not have 
to worry about a health issue for a family member, or any type 
of other distraction, then we have someone who is here, who is 
focused, who has clarity of thought, and who is able to 
respond. We also looked at, you know, any medical issues or any 
type of issues that are prevalent in our workforce.
    The difficult part of implementing a required program is 
providing people with time and effort off post to prepare. For 
us, we work our mission requirements short-handed based on 
current FTE levels, so we work a tremendous amount of overtime, 
we work all over the country, and we have long hours. Our 
employees are here more with us than they are with their 
families in a lot of cases.
    And what we try to do is focus and prioritize the time that 
they have on the clock to the really core prioritized mission. 
One of the things that we would need to do in order to 
implement a mandatory program is provide them opportunities to 
be physically fit, which is more time off-post, which is more 
time I have to backfill with overtime. I'd rather use those 
personnel for mission focus and then try to leverage all of the 
programs that we have to make them healthy.
    We have a tremendous level of participation in our gyms. We 
have three gyms: one at the USCP training academy, and two here 
on the Hill. We have, you know, incentives in place and a lot 
of programs. We have a fitness coordinator that helps design 
programs for individuals. We're going to bring on a 
nutritionist to help people maintain a healthy lifestyle. And 
it's all part of the overall picture to make people more 
effective here at work. And I think we have a very good plan. I 
can certainly work with the staff to get you more details on 
our approach to this. But I'm very encouraged with some of the 
work that the House side is doing in terms of their wellness 
center, as well as some of the things that we're working on 
with our Diversity Office in terms of peer support and a 
mentoring program, which all goes into the overall wellness of 
the individual.
    I think we're in good shape. Again, if I saw an issue, if I 
saw officers needing medical attention, hospitals, and all that 
kind of thing, we would take a different look, a different 
approach. We've also surveyed a number of other agencies and 
looked at the pitfalls and looked at the priorities that they 
have had and how they implemented programs, and it really runs 
the gamut from a voluntary to mandatory with consequences, and 
which can be challenged in court and that kind of thing.
    So it's really a larger program than just the physical 
aspect of it. I do appreciate the question, and it's something 
that we look at on a continuing basis.
    Senator Hyde-Smith. Thank you.
    Mr. Verderosa. You're very welcome.

                              IT HELP DESK

    Senator Hyde-Smith. Mr. Stenger, you are asking for an 
additional $3.4 million to improve the current IT Help Desk 
contract, which supports Senators' offices and committees with 
their IT needs. Will you explain to us the need for the 
increase and what improvements the Senate community can expect 
from this expenditure?
    Mr. Stenger. Yes. Chairman, I think back in 2013 there was 
a large reduction in the staffing of the help desk, I think it 
was 35 percent. Since that time, they've lost another almost 30 
percent of technical folks there, and their technical expertise 
has dropped since then. The program expires--or the contract 
expires in October of 2019. We have to find a replacement.
    One of the benefits that we're hoping to get out of it is 
to draw stricter guidelines for what's acceptable as far as 
expertise and going out to support the community. I think 
customer service is very important, and customer satisfaction 
is very important. We have dropped in some of the levels of the 
technical expertise because of the drawdown. So we need to 
build that up. Technology continues to change on a daily basis, 
so it's always competing and trying to make sure that you have 
the most technically astute people.
    I think the other benefit that you have on a help desk, 
that we have if we staff it correctly, is you have a core of 
subject matter experts that can advise your systems 
administrators on the system in a better fashion than maybe 
what's been taking place because of the continuing competition 
for those assets.
    Senator Hyde-Smith. And how does the IT Help Desk interact 
with or supplement the system administrators' in Senators' 
personal offices?
    Mr. Stenger. They're the ones that would provide the 
support for any IT problem. You may have a system administrator 
that's not sure about something or doesn't have that technical 
expertise, they're able to call the help desk. Last year, the 
help desk handled 11,000 calls and 6,600 installations. So 
they're out there to assist your staff, the system 
administrators and others who may not have the expertise. 
That's why we're trying to build this core up.
    Senator Hyde-Smith. That sounds very helpful.
    Any more questions?
    Senator Murphy. Just a couple more.

               INTER-JURISDICTIONAL POLICE COMMUNICATION

    Chief Verderosa, I believe my first year in the Senate, 
there was a tragic incident where a young woman from 
Connecticut drove her car through a number of jurisdictions 
ending up here on the Capitol grounds. And in surveying what 
had gone right and gone wrong, one of the challenges that was 
pointed out was the fact that she did, in a very short period 
of time, cross several law enforcement jurisdictions going from 
Secret Service to Metropolitan Police to Capitol Police. And it 
is very challenging to convey information when something is 
developing that quickly.
    Without disclosing any protocols that should remain 
private, have there been changes put in place since that time? 
And is that an ongoing discussion to make sure that we are 
maximizing the speed with which information transfers when 
individuals are rushing from one jurisdiction to another that 
may be a threat to the campus?
    Mr. Verderosa. Sure. Oh, absolutely. We have made great, 
great improvements in communicating with our partner agencies. 
One of the things that we do for the Metropolitan Police and 
for other police departments within the city, we have the 
ability to communicate over our radio system directly. We have 
the Metropolitan Police radio systems in our vehicles, so we 
can talk car to car. I can answer a call to their dispatcher. 
We get information immediately. We monitor their radios in our 
command center and we know what they're seeing.
    We also have the ability to talk on a direct line to the 
core police departments' communication centers. So we have a 
phone that picks up in the Secret Service JOC and the FBI's 
Washington Field Office Dispatch Center. We also--and that 
phone also picks up for the Metropolitan Police and the United 
States Park Police.
    So, when we have a multi-jurisdiction event, we no longer 
have to go through the series of notifying a dispatcher to call 
the supervisor; their watch commander talks directly to our 
watch commander. The information is put out immediately over 
our radio system, and we know what's coming. It's not perfect 
obviously because communication still has to flow, but I think 
we've made tremendous strides.
    Our dispatchers have the ability to communicate basically 
with any police department over the radio in the National 
Capital Region over a unified radio channel. We have 
relationships and other police departments' radio frequencies 
on every officer's portable radio, to some extent, this 
includes Park Police, Metropolitan Police, and some of us have 
the Secret Service as well.
    So I think the communication has improved greatly. We 
monitor and coordinate responses when other agencies have 
events. So say there's an event with the Secret Service down at 
one of their locations, whether it's the White House or any 
other event where they have jurisdiction. If it's a critical 
incident, we're going to send a commander to--or an 
intelligence agent to their command post, and they're going to 
get direct information. We'll know what's going on, we'll know 
who the subject is, and we can run those individuals through 
our databases to ensure that if this threat to either the White 
House or one of the monuments is truly a threat, we're going to 
know if we have a threat against us based on this individual's 
personal identifiers.

     PHYSICAL FITNESS REQUIREMENTS ACROSS LAW ENFORCEMENT AGENCIES

    Senator Murphy. And then the last thing, just to follow up 
on Senator Hyde-Smith's question about the survey you did on 
physical fitness, I think you raised an interesting question 
about whether there's a responsibility to provide time----
    Mr. Verderosa. Right.
    Senator Murphy [continuing]. On the clock or not. When you 
surveyed other law enforcement agencies that did have some 
physical fitness requirement, did they all provide on-the-clock 
time for physical fitness, or did some of them expect or would 
we find examples of agencies in which their expectation was 
that physical fitness could happen off the clock?
    Mr. Verderosa. Right. My recollection is that it ran the 
gamut from some did, some didn't. Certainly, remedial, if 
someone didn't pass a test, would be done in a programmatic way 
in that you have to meet certain benchmarks for improvement, 
and I believe that the remediation part, at a minimum, would be 
on the clock. But I can follow up with you and get you more 
specifics.
    [The information follows:]

    For those law enforcement agencies that we surveyed who have 
physical fitness requirements, not all of the details are known about 
the programs. This is in part due to the legal and logistical hurdles 
that these agencies have had and are continuing to work through to 
implement a program. However, we are aware that the United States 
Marshals Service authorizes up to three hours of training per week 
during duty time to participate in approved fitness-related activities 
in preparation of meeting physical fitness and ability testing 
standards.

    Senator Murphy. Okay. Thank you. Thank you, sir.
    Thank you, Madam Chair.
    Senator Hyde-Smith. This concludes the Legislative Branch 
Appropriations Subcommittee hearing regarding fiscal year 2020 
funding for the Senate Sergeant at Arms and the U.S. Capitol 
Police. I want to thank both of you for testifying today. I 
also want to thank you for the tour of the USCP command center 
when we had the State of the Union Address. You've both been so 
accessible to me, and I really appreciate that. You've been 
very kind and very, very accommodating. So I just commend you 
both for that.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 7 days, allowing 
Members to submit statements and/or questions for the record, 
which should be sent to the subcommittee by close of business 
on Wednesday, April the 10th, 2019.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Michael C. Stenger
             Questions Submitted by Senator James Lankford
    Question. Are you aware of any existing technology, software, or 
application that could enable visual voicemail for the Senate's current 
telephone system? Do those capabilities exist?

    Answer. While the current telephone system does not have the 
capability to convert voicemail to text, there are third party 
solutions available in the commercial marketplace.

    Question. What steps would need to be taken to implement? And what 
would be the cost to implement? If these capabilities exist, why has 
the Senate not already adopted them?

    Answer. Implementing visual voicemail would require additional 
equipment and resources with an estimated cost of $2 million dollars. 
Given the capacity and lifecycle of the current telephone system, 
focusing resources on design, procurement and implementation of a new 
Unified Communications and Collaboration (UCC) system positions the SAA 
to better support the Senate's communication requirements as a whole.

    Question. If these capabilities exist, why has the Senate not 
already adopted them?

    Answer. The SAA is focused on a plan to transform constituent 
communications capabilities for Senate offices. This plan includes 
improving the constituent experience while increasing the Senate office 
capability to receive, process and act on the communications. The voice 
to text capability is just one example of what the SAA hopes to provide 
to each office.

    Question. Under the SAA's request for proposal entitled Unified 
Communications and Collaboration (2019-R-029), are visual voicemail 
capabilities being considered in the business requirements for the new 
system?

    Answer. Yes.

    Question. If so, can SAA provide a timeframe of when visual 
voicemail will be available for use in offices?

    Answer. We will work as quickly as possible to determine how the 
SAA might provide this capacity as part of our overall work to update 
the Senate telephone system. To that end, we will soon begin working 
with a competitively-selected vendor to develop the business 
requirements and design the system architecture.

                          SUBCOMMITTEE RECESS

    Senator Hyde-Smith. The next hearing of the subcommittee 
will be held on Wednesday, April 10, at 3:15 p.m., in Dirksen 
124, when we will hear testimony from the Congressional Budget 
Office and the Government Accountability Office regarding the 
fiscal year 2020 budget request.
    Until then, the subcommittee stands adjourned.
    [Whereupon, at 4:15 p.m., Wednesday, April 3, the 
subcommittee was recessed, to reconvene at 3:15 p.m., 
Wednesday, April 10.]
</pre></body></html>
